                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

Case Number: A05030010                                                1                                      Page 1 of 1



                    As part of a proactive review of awards involving a significant amount ofparticipant support
         funds, we identified an award' that had been transferred along with the principal investigator (PI) to
         another institution (Institution 2).2 The original institution (Institution 1)3became a subawardee and
         continued to execute the project. We learned that Institution 1, as the subawardee, requested a
         reallocation,ofparticipant support funds for other purposes from Institution 2. Institution 2 approved
         the request nine months before obtaining the requisite prior written approval of the NSF program
         ~ f f i c e r There
                       .~    was no indication that the program officer would not have approved the request if it
         had been made in a timely manner.

               The only other issues identified in the review of the documents pertained to adequacy of the
         documentation and the allowability of particular purchases under the participant support heading.
         However, NSF's foreknowledge of the purchases under the participant support heading and
         subsequent approvals negate further need for an audit under the given circumstances.

                    Accordingly, this case is closed.




         4
          Institution 2 requested the reallocation from the program officer after OIG made two requests to Institution 1 for
         copies of its documentation to support expenses under the initial award.



ISF OIG Form 2 (1 1/02)
